No. 20-6871

ANGNEM GREEN,
Petitioner,
v.

No. 20-6871

STATE OF NEW YORK,
Respondent.

AFFIDAVIT OF SERVICE
I, V. Christopher Eaggleston, of lawful age, being duly sworn, upon my oath state that I
did, on the 12th day of March, 2021, send out from Canandaigua, New York, one package
containing one letter to the Clerk of the Court pursuant to Rule 30.4 in the above entitled case.
All parties required to be served have been served by Priority Mail. Packages were plainly
addressed to the following:
John. A. Cirando, Esq.
D.J. & J.A. Cirando, PLLC
250 South Clinton Street
Suite 350
Syracuse, New York 13202
Tel: (315) 474-1285
Email: cirandolaw@outlook.com
Counsel for Petitioner Angnem Green

/V. CHRISTOPHER EAGGLESTON
Assistant District Attorney
Sworn to before me this
12th day of March, 2021

Notary Public
JAMES B. RITTS
NOTARY PUBLIC, State of New York
No. 12PI5085O13
Oualif'ed in Ontario County
Commission Expires September 15.

